APPENDIX

i
TABLE OF CONTENTS
Appendix A Order in the Indiana Supreme Court
(January 23, 2020) . . . . . . . . . . . App. 1a
Appendix B Opinion in the Court of Appeals of
Indiana
(October 8, 2019) . . . . . . . . . . . . . App. 3a
Appendix C Order in the Elkhart Superior Court
No. 3
(May 9, 2018). . . . . . . . . . . . . . . App. 29a
Appendix D Order in the Elkhart Superior Court
No. 3
(August 30, 2017) . . . . . . . . . . . App. 32a
Appendix E Order in the Elkhart Superior Court
No. 3
(December 21, 2016) . . . . . . . . . App. 35a
Appendix F Order in the Elkhart Superior Court
No. 3
(November 23, 2016) . . . . . . . . . App. 41a
Appendix G Order in the Elkhart Superior Court
No. 3
(March 14, 2016) . . . . . . . . . . . . App. 48a
Appendix H Relevant Statutory Provisions. App. 50a
Indiana Code § 16-39-1-7 . . . . . App. 50a
Indiana Code § 16-39-2-9 . . . . . App. 51a
Indiana Code § 25-23.6-1-3.8 . . App. 52a
Indiana Code § 25-23.6-6-1. . . . App. 52a

App. 1a

APPENDIX A
IN THE
INDIANA SUPREME COURT
Court of Appeals Case No.
18A-CR-02359
Trial Court Case No.
20D03-1509-FA-20
[Filed January 23, 2020]
____________________________________
Marty W. Friend,
)
Appellant(s),
)
)
v.
)
)
State Of Indiana,
)
Appellee(s).
)
___________________________________ )
ORDER
This matter has come before the Indiana Supreme
Court on a petition to transfer jurisdiction, filed
pursuant to Indiana Appellate Rules 56(B) and 57,
following the issuance of a decision by the Court of
Appeals. The Court has reviewed the decision of the
Court of Appeals, and the submitted record on appeal,
all briefs filed in the Court of Appeals, and all
materials filed in connection with the request to
transfer jurisdiction have been made available to the
Court for review. Each participating member has had

App. 2a
the opportunity to voice that Justice’s views on the case
in conference with the other Justices, and each
participating member of the Court has voted on the
petition.
Being duly advised, the Court DENIES the petition
to transfer.
Done at Indianapolis, Indiana, on 1/23/2020.
FOR THE COURT
s/____________________
Loretta H. Rush
Chief Justice of Indiana
All Justices concur, except for Rush, C.J., and Goff, J.,
who vote to grant the petition to transfer.

App. 3a

APPENDIX B
IN THE
COURT OF APPEALS OF INDIANA
Court of Appeals Case No.
18A-CR-02359
Trial Court Cause No.
20D03-1509-FA-20
[Filed October 8, 2019]
____________________________________
Marty Friend,
)
Appellant-Defendant,
)
)
v.
)
)
State of Indiana,
)
Appellee-Plaintiff
)
___________________________________ )
Appeal from the Elkhart Superior Court
The Honorable Teresa L. Cataldo, Judge
ATTORNEY FOR
APPELLANT

ATTORNEYS FOR
APPELLEE

Stacy R. Uliana
Bargersville, Indiana

Curtis T. Hill, Jr.
Attorney General of
Indiana

App. 4a
Ellen H. Meilaender
Deputy Attorney General
Indianapolis, Indiana
Baker, Judge.
[1]

Marty Friend appeals his conviction for Level
1 Felony Child Molestation,1 arguing that the
trial court erred by denying his motions for
preliminary discovery of privileged records
and by refusing to admit certain evidence.
Finding no error, we affirm.
Facts

[2]

1

In 2010, Friend and his wife, Kathy Friend
(Kathy), adopted seven-year-old A.F. from a
Russian orphanage and brought her to
Indiana. A.F. had trouble adjusting to life in
the United States. She did not follow rules,
did not respect her teachers’ authority, and
was terrified to sleep in a room by herself.
A.F. would often sleep on the floor of her
parents’ bedroom and felt confused and alone
because of the language barrier. A.F. would
aggressively wrestle with her classmates
“because of the way that she was used to
playing with other kids” in Russia. Tr. Vol.
IV p. 129. A.F. was repeatedly cited for
bullying and frequently got into trouble. A.F.
would often laugh at inappropriate times in
class and was unable to communicate her
true feelings due to her poor English skills.

Ind. Code § 35-42-4-3(a)(1).

App. 5a
A.F. and Friend had difficultly bonding
during this period and for most of her
childhood.
[3]

After Friend and Kathy divorced in the
summer of 2012, Kathy, who had physical
custody of A.F., moved with the child to
Bloomington. A.F. stayed with Friend in
Kokomo every other weekend. During those
visits, Friend and A.F. constantly fought and
called each other names. A.F. complained
about the time she had with Friend, and
Kathy noticed that A.F. would return from
these weekend visits “unkempt, hadn’t
showered[] . . . like an animal.” Id. at 184.
Also, A.F. continued to have academic and
social problems at school.

[4]

In 2014, Kathy became so worried about
A.F.’s condition that she arranged for A.F. to
see a private social worker, Kate Creason. As
part of her overall evaluation, A.F. was
assessed for Reactive Attachment Disorder
(RAD), which is a psychological condition
that results from a lack of an intimate bond
between parent and child during infancy.
RAD is often diagnosed in adopted children
due to their sometimes unstable upbringing;
it is characterized by meanness, physical
aggression, lying, cruelty to animals, and an
apparent lack of empathy. Creason did not
diagnose A.F. with RAD, and neither Friend
nor Kathy received records or other
documents from those sessions.

App. 6a
[5]

In February 2015, when A.F. was in sixth
grade, Kathy received a phone call from the
school therapist telling her that A.F. was
cutting her wrist with a dull knife. Kathy
talked with A.F. and asked her what had
been going on. Unable to put her thoughts
into words, A.F. wrote down the following
passage in a notebook:
Dad touches me inappropriate places
down their and up their and last Friday
he made me suck it
like he put his thing in my thing ;
Appellant’s App. Vol. II p. 37; State’s Ex. 5(A)
(capitalization, punctuation, and spelling in
original). Kathy promised A.F. that she would
stop it.

[6]

A.F. testified that Friend had started
molesting her during weekend visits just
after he and Kathy split up and divorced in
2011-12. Friend would give A.F. a back
massage and then start to move his hands
“[a]ll over [A.F.’s] body.” Tr. Vol. V p. 149.
Friend’s hands would then move to and grope
A.F.’s breasts and vagina. Friend would
squeeze A.F.’s breasts and insert his fingers
into her vagina. A.F. stated that “[i]t didn’t
feel bad, but it was confusing.” Id. at 153.
Friend would then direct A.F. to put her
hands on his penis and move them up and
down until “[w]hite stuff,” id. at 161, came
out of his body. Friend also directed A.F. to

App. 7a
put her mouth on his penis until the same
thing happened. All the while, Friend twice
ordered A.F. “not to tell [Kathy].” Id. at 171.
[7]

On September 2, 2015, the State charged
Friend with one count of Class A felony child
molestation and one count of Level 1 felony
child molestation. On March 7, 2016, Friend
filed a verified motion seeking all medical
records from A.F.’s one-on-one sessions with
Creason. Friend argued that Creason’s
reports might contain information that A.F.
had been diagnosed with RAD, and
consequently, that she could have been lying
about the molestation allegations. Following
a August 5, 2016, evidentiary hearing on the
motion, the trial court denied Friend’s
request, finding that Friend “has simply not
made a substantiated claim that the records
he seeks do in fact contain material or
exculpatory information.” Appellant’s App.
Vol. II p. 123. Friend filed two motions to
reconsider, including one request that the
trial court conduct an in camera review of the
materials and one request to seal the records,
which the trial court denied on December 21,
2016, and August 30, 2017, respectively.

[8]

On October 4, 2017, Friend filed a notice of
intent to use evidence in the form of 137
emails and text messages along with
testimony from expert witness Dr. Gerald
Wingard. In response, the State filed a
motion in limine seeking to exclude that

App. 8a
evidence. Friend requested a pretrial
admissibility ruling on this motion.
Following a hearing, the trial court issued an
order on May 9, 2018, granting the State’s
motion and excluding the evidence from trial.
The trial court denied Friend’s motions to
reconsider on July 31, 2018.
[9]

Following Friend’s August 20-23, 2018, jury
trial, Friend was found guilty of Level 1
felony child molestation but not guilty of
Class A felony child molestation. Thereafter,
on September 20, 2018, the trial court
sentenced Friend to forty years
imprisonment in the Department of
Correction, with ten years suspended to
probation. Friend now appeals.
Discussion and Decision
I. Preliminary Discovery

[10]

First, Friend argues that the trial court
erroneously denied his requests for preliminary
discovery of A.F.’s privileged records. First, he
argues that some of the information in those
records might have been material to his defense.
Next, he argues that his federal constitutional
rights entitle him to the records so that he may
construct a complete defense.

[11]

We will reverse discovery matter rulings “only
where the trial court has reached an erroneous
conclusion which is clearly against the logic and
effect of the facts [and circumstances] of the
case.” Pioneer Lumber, Inc. v. Bartels, 673

App. 9a
N.E.2d 12, 15 (Ind. Ct. App. 1996). “Due to the
fact-sensitive nature of discovery matters, the
ruling of the trial court is cloaked in a strong
presumption of correctness on appeal.” Id. “We
may affirm the trial court’s ruling if it is
sustainable on any legal basis in the record,
even though this was not the reason enunciated
by the trial court.” Williams v. State, 819 N.E.2d
381, 384-85 (Ind. Ct. App. 2004).
Materiality and Privilege
[12]

Friend sought A.F.’s records from her one-on-one
sessions with Creason, the social worker,
arguing that the results of the RAD evaluation
were essential to Friend’s defense that A.F. was
fabricating the molestation allegations. Lying, a
lack of empathy, and aggressive behavior are
well-known symptoms of RAD, so Friend
contends that proof that A.F. was diagnosed
with the disorder was material to his claim that
A.F. had been lying.

[13]

In Jorgensen v. State, our Supreme Court held
that:
[w]ith respect to nonprivileged
information, there are two principal
questions which a trial court must
consider in ruling on questions relating to
discovery in a criminal trial: (1) is there a
sufficient designation of the items sought
to be discovered; and (2) are the items
sought material to the defense? If the
answers to both questions are affirmative,

App. 10a
the trial court must grant the discovery
motion unless the State makes a showing
of paramount interest in nondisclosure.
574 N.E.2d 915, 917 (Ind. 1991) (emphasis
added). So, we must first decide whether
information is privileged before we conduct a
Jorgensen inquiry. If it is privileged, the
Jorgensen inquiry does not apply. If it is not
privileged, the Jorgensen inquiry does apply and
we must conduct that inquiry. “Put differently,
[if] there is no chance that the information
sought . . . is anything other than
privileged[] . . . that ends the inquiry.” In re
Crisis Connection, Inc., 949 N.E.2d 789, 795
(Ind. 2011).
[14]

In Indiana, “privileges are statutory in nature
and . . . it is within the power of the legislature
to create them.” State v. Pelley, 828 N.E.2d 915,
918 (Ind. 2005). Indiana Code section 25-23.6-61 states that “[m]atters communicated to a
counselor in the counselor’s official capacity by
a client are privileged information and may not
be disclosed by the counselor to any person,”
except under specific circumstances enumerated
in the statute. The statutory definition of
“counselor” includes social workers. I.C. § 2523.6-1-3.8.

[15]

Our Supreme Court has defined the importance
of this privilege:
By enacting I.C. § 25-23.6-6-1 the
Legislature extended to counselors the

App. 11a
same privilege that exists for physicians.
The intent and dominant purpose of the
statute is to grant a privilege to protect
confidential communication between a
counselor and the counselor’s client. . . .
[T]he focus of [the privilege] is the same,
namely, protecting communication.
Pelley, 828 N.E.2d at 918-19. The record plainly
shows that the documents compiled during the
course of A.F.’s one-on-one sessions with
Creason are privileged and may not be disclosed
unless they fall under one of the statutorilydefined exceptions—none of which apply here.
Because this information is privileged, we may
not conduct a Jorgensen inquiry. Friend is not
entitled to relief on this basis.
Friend’s Constitutional Rights
[16]

Next, Friend argues that his federal
constitutional rights entitle him to Creason’s
records so that he may present a complete
defense.

[17]

It is well settled that “criminal defendants have
the right to the government’s assistance . . . to
put before a jury evidence that might influence
the determination of guilt.” Pennsylvania v.
Ritchie, 480 U.S. 39, 56 (1987). To that end, “the
government has the obligation to turn over
evidence in its possession that is both favorable
to the accused and material to guilt or
punishment.” Id. at 57 (emphasis added). In
contrast, our Supreme Court has held that non-

App. 12a
government actors are not compelled to produce
evidence under the Sixth or Fourteenth
Amendments. In re Crisis, 949 N.E.2d at 799800. Because Creason is not a government actor,
she cannot be compelled to produce documents
as if she were a prosecutor under a Ritchie
analysis.2
[18]

2

Friend also argues that the trial court should
have conducted an in camera evaluation of these
privileged records. But, “Indiana’s [counselorclient] privilege is one that generally prohibits
disclosure for even in camera review of
confidential information.” Id. at 802 (emphases
in original). Our Supreme Court has reasoned
that a criminal defendant’s rights to a fair trial
and to present a complete defense are well
protected by “extensive access to other sources of
evidence.” Id.; see also In re WTHR-TV, 693
N.E.2d 1, 5 (Ind. 1998) (holding that liberal rules
of discovery allow a defendant to access
information that does not disturb privilege and
does not invoke a constitutional analysis).
Friend had ample opportunities during his trial
to access non-privileged information to show

Additionally, the State is correct in pointing out that it did not
receive an “unfair advantage” regarding its access to the records.
For one thing, there is no proof that the State had these records in
its possession. And if the State had the records, it would be
compelled under Brady v. Maryland, 373 U.S. 83, 87-88 (1963), to
disclose them if they contained exculpatory information. Based on
what we can gather from the record, only Creason maintained the
documents at all times as a private, independent, non-government
actor.

App. 13a
that A.F. was showing symptoms of RAD. We
cannot say that Friend’s constitutional rights
were violated under these circumstances.
[19]

In sum, we find that the trial court did not err
by denying Friend’s requests for pretrial
discovery of privileged records.
II. Admission of Pretrial Evidence

[20]

Next, Friend argues that the trial court
erroneously refused to admit certain pretrial
evidence—namely, (1) written and testimonial
evidence proffered to prove that A.F. suffered
from RAD;3 and (2) additional evidence proffered
to prove A.F.’s biases against Friend.

[21]

Reversal of a trial court’s admissibility
determination is appropriate only where the
decision is clearly against the logic and effect of
the facts and circumstances. Joyner v. State, 678
N.E.2d 386, 390 (Ind. 1997). “Moreover, we will
sustain the trial court[’s] [decisions on the
admission of certain evidence] if it can be done
on any legal ground apparent in the record.”
Jester v. State, 724 N.E.2d 235, 240 (Ind. 2000).

3

Friend also argues that the trial court erroneously omitted this
evidence from the record, thereby preventing us from reviewing his
evidentiary appeal. However, this argument is moot because
Friend’s exhibits and evidence eventually became part of Clerk’s
Record, and henceforth, the record on appeal. See generally
Appellant’s App. Vol. V.

App. 14a
RAD Evidence
[22]

First, Friend argues that the trial court erred
when it refused to admit his proffered evidence
that, Friend alleges, proved that A.F. had been
suffering from RAD. Specifically, Friend
submitted 137 exhibits containing text messages
and emails between Kathy and A.F. and
between Friend and A.F. along with testimony
from Friend’s expert witness, Dr. Wingard.

[23]

In its pretrial order excluding this evidence, the
trial court stated the following:
[Friend] seeks to introduce two (2)
primary types of evidence at the trial in
this matter, which he classifies as
“behavioral evidence” related to Reactive
Attachment Disorder (R.A.D.). This topic
has been heavily litigated in this case
through various motions. [Friend]
initially sought discovery of A.F.’s therapy
records and confidential notes compiled
by counselor Kate Creason. Throughout
the Court’s review and consideration of
[Friend’s] numerous motions on this
issue, the conclusion reached is that A.F.
has not absolutely been diagnosed with
R.A.D. syndrome. At the evidentiary
hearing held on December 20, 2017, Dr.
Gerald Wingard testified that based only
on documents of text messages exchanged
between [Friend], A.F., and [Kathy], he
was viewing mere “glimpses of behavior”
of A.F. There is no indicia of evidence that

App. 15a
A.F. actually suffers from R.A.D. other
than speculation on the part of [Friend].
Furthermore, [Friend] has not discovered
any witness to the State to form the basis
to elicit any such testimony, nor has any
expert reports or records been provided in
support of such opinion.
The information before the Court does not
support permitting a defense regarding
that A.F. suffers from R.A.D. because it
has not been established that she does.
Evidence of such a diagnosis, its signs
and symptoms, without any basis or
evidence that A.F. actually suffers from
R.A.D. amounts to jury speculation at
best. In this regard, such evidence is
prejudicial as it lacks foundation. As
noted by the Court in previous orders,
[Friend] is certainly free to test A.F.’s
credibility and conduct impeachment in
any permissible manner. However, direct
testimony about R.A.D. to suggest that
A.F. might suffer from it would be
misleading. Accordingly, [Friend’s]
Request for Admissibility of Behavioral
Evidence is denied.
Appellant’s App. Vol. III p. 194-95.
[24]

As a general matter, any relevant evidence may
be excluded “if its probative value is
substantially outweighed by a danger of one or
more of the following: unfair prejudice, confusing
the issues, misleading the jury, undue delay, or

App. 16a
needlessly presenting cumulative evidence.” Ind.
Evidence Rule 403.
[25]

Nothing in these exhibits of text messages or
emails indicates that A.F. is suffering from RAD.
In fact, many of the conversations between A.F.
and Friend are quite positive, undercutting
Friend’s arguments that A.F. “consistently
called Friend names, was disrespectful of adults,
lied, stole, was mean and aggressive towards
others, blamed others for her issues, was angry,
triangulated adults against one another,
demanded gifts, and presented unusual, possibly
even delusional, behavior.” Appellant’s Br. p. 41.
And, without an official diagnosis or, at the very
least, a more solid foundation that Friend was
actually suffering from RAD, the trial court did
not err by concluding that this bevy of
information should be excluded.

[26]

Moreover, Evidence Rule 403 precludes
needlessly presenting cumulative evidence. It is
not unreasonable to find that the 137 exhibits of
text messages and conversations between A.F.
and Friend and A.F. and Kathy, in addition to
the lengthy testimony of Dr. Wingard, amounted
to cumulative evidence. See, e.g., Morse v. Davis,
965 N.E.2d 148, 160 (Ind. Ct. App. 2012) (finding
that in a medical malpractice action, the
exclusion of one additional chart proving a
family history of cancer was not in error because
it was cumulative of other evidence that was
already proffered to demonstrate a patient’s
failure to inform). Friend was already planning

App. 17a
to, and in fact did, argue that A.F. suffered from
RAD and submitted evidence in support thereof,
so an endless review of the text messages would
have been superfluous.
[27]

Friend also maintains that Dr. Wingard should
have been permitted to testify. Dr. Wingard
would have testified as follows:
[A.F.] needs an evaluation now. I
obviously was present when Mr. Friend
was testifying and said that a RAD
assessment had been done but had not
been given any information about it. I’m
not sure what an evaluation—what good
an evaluation does if there—if parents are
not notified about the results; but
there’s—there’s no question that the list
of exhibits that I’ve just gone through
would say we need to do an in-depth
psychological evaluation.
Tr. Vol. II p. 194. Dr. Wingard admits that he
had not witnessed any of A.F.’s symptoms nor
had he conducted an independent evaluation of
A.F. Rather, all of Dr. Wingard’s conclusions
about A.F. potentially suffering from a
psychological disorder were based on conjecture,
and he merely speculates that A.F. needs a
psychological evaluation sometime in the future.
In other words, there was no foundation laid for
Dr. Wingard’s conclusions. Therefore, the trial
court did not err by precluding this testimony.

App. 18a
[28]

Moreover, if the trial court did err by excluding
this evidence, the error was, at most, harmless.
“Errors in the admission or exclusion of evidence
are to be disregarded as harmless error unless
they affect the substantial rights of the party.”
Barnhart v. State, 15 N.E.3d 138, 143 (Ind. Ct.
App. 2014). The decision to exclude evidence is
harmless if its probable impact on the jury is
sufficiently minor. Id. Here, the decision to
exclude was harmless because Kathy, Friend,
and A.F. all testified at trial as to A.F.’s ongoing
behavioral issues. While Friend did not get a
chance to question Dr. Wingard as an expert
witness, these witnesses nevertheless discussed
A.F.’s problems of communicating her problems,
lying to Friend, complaining of her weekend
visits to Friend’s home, having thoughts of
worthlessness, overcoming the language barrier,
behaving strangely, and even performing selfharming acts. The 137 exhibits and Dr.
Wingard’s potential testimony would have only
expounded upon A.F.’s behavioral issues,
proving that Friend’s substantive rights were
not affected by the exclusion.

[29]

Thus, the trial court did not err when it refused
to admit Friend’s proffered evidence about A.F.
allegedly suffering from RAD.
Bias Evidence

[30]

Next, Friend argues that the trial court erred
when it refused to admit his proffered evidence
that, Friend alleges, tends to show A.F. was
biased against him. Specifically, Friend moved

App. 19a
to admit evidence that A.F. once stole money
from another person; that A.F. once falsely said
that their dog was dead; and that A.F. had taken
and deleted inappropriate photos of herself on a
phone.
[31]

Indiana Evidence Rule 616 says that “[e]vidence
that a witness has a bias, prejudice, or interest
for or against any party may be used to attack
the credibility of the witness.” We have
recognized that evidence of bias, prejudice, or
ulterior motives is relevant at trial because it
may discredit the witness or affect the weight of
the witness’s testimony. Kirk v. State, 797
N.E.2d 837, 840 (Ind. Ct. App. 2003). However,
for such evidence to be admissible, the defendant
must demonstrate that he was prejudiced, or
else there is no error in excluding it. Id. at 84041.

[32]

On its face, none of this evidence shows that
A.F. was biased against Friend. These three
disparate incidents merely consist of A.F. acting
erratically and doing something characteristic of
someone who has ongoing behavioral issues or is
simply a rebellious teenager. The actions of
stealing money from someone, lying about a
dead dog, and taking and deleting photos have
no bearing on Friend’s case, and he makes no
cognizable claim that any of these incidents
actually prejudiced him. Instead, Friend
contends, without any further explanation, that
all of these incidents “present evidence that A.F.
was lying in retaliation for Friend’s punishment

App. 20a
of her escalating behavior in the months before
the accusation.” Appellant’s Br. p. 47.
[33]

4

Moreover, Friend had ample opportunity to
cross-examine both A.F. and Kathy during trial
to probe for genuine pretext and bias.
Nevertheless, Friend narrows in on these
random events, which neither relate to nor
support his argument that A.F. was so biased
against him as to fabricate molestation
allegations. While a party may inquire into such
collateral matters on cross-examination, those
collateral matters cannot be “used in a manner
solely to prejudice a jury against a witness and
[are] not material to the litigation[.]” Kien v.
State, 782 N.E.2d 398, 409 (Ind. Ct. App. 2003).
These “evidentiary harpoons” are pieces of
evidence that would not be independently
admissible, and therefore, their admission even
on cross-examination is improper. Id. Because
Friend does not present any cogent argument
that he was prejudiced by these events and
because these events are not independently
relevant or material, we find that the trial court
did not err by refusing to admit them.4

As a final matter, Friend also argues that the trial court erred
when it did admit evidence of A.F.’s written disclosures and
journal entries, wherein A.F. described the molestation and her
strained relationship with Friend. We find that, at most, the trial
court committed harmless error. “The erroneous admission of
evidence that is merely cumulative of other admissible evidence is
not grounds for reversal.” Crawford v. State, 770 N.E.2d 775, 781
(Ind. 2002). It was firmly established at trial that Friend and A.F.
had a strained relationship, and A.F. testified at length about how

App. 21a
[34]

The judgment of the trial court is affirmed.
Kirsch, J., concurs.
Crone, J., concurs in part and dissents in part
with a separate opinion.

and when Friend molested her. Therefore, the admission of the
journal entries and written disclosures was merely cumulative of
evidence already presented.

App. 22a
IN THE
COURT OF APPEALS OF INDIANA
Court of Appeals Case No.
18A-CR-02359
____________________________________
Marty Friend,
)
Appellant-Defendant,
)
)
v.
)
)
State of Indiana,
)
Appellee-Plaintiff
)
___________________________________ )
Crone, Judge, concurring in part and dissenting
in part.
[35]

5

I respectfully disagree with the majority’s
conclusion that the trial court did not abuse its
discretion5 in denying Friend’s request for
pretrial discovery of social worker Creason’s
records. The majority states that “we may not
conduct a Jorgensen inquiry” because “[t]he
record plainly shows that the documents
compiled during the course of A.F.’s one-on-one
sessions with Creason are privileged[.]” Id. at 8.
Although the matters that A.F. communicated to
Creason are specifically privileged pursuant to
Indiana Code Section 25-23.6-6-1, Creason’s

“Our standard of review in discovery matters is abuse of
discretion.” Williams, 819 N.E.2d at 384. “This applies to requests
for in camera review of items to determine if they are
discoverable.” Id.

App. 23a
diagnosis of A.F. is not.6 The State does not
argue that the diagnosis is insufficiently
particular or immaterial for purposes of
Jorgensen, and any such argument would be
meritless.
[36]

6

But even assuming that the diagnosis is
otherwise privileged and/or that Creason’s
records might contain other privileged
information material to Friend’s defense (such
as statements by A.F. that might be mentioned
in Creason’s RAD evaluation), “the privilege
must yield to [Friend’s] constitutional rights.”
Crisis Connection, 949 N.E.2d at 795. “In
determining whether [Friend’s] constitutional
right to present a complete defense would be
violated by nondisclosure of [Creason’s] records,
we weigh the interest advanced by Indiana’s
[counselor-client] privilege ‘against the inroads
of such a privilege on the fair administration of
criminal justice.’” Id. at 801 (quoting United
States v. Nixon, 418 U.S. 683, 711-712 (1974)).
The interest advanced by the counselor-client
privilege is substantially similar to that
advanced by the victim advocate privilege at
issue in Crisis Connection, namely, to foster “an
atmosphere of confidence and trust in which the
patient is willing to make a frank and complete
disclosure of facts, emotions, memories, and

The majority states that “Creason did not diagnose A.F. with
RAD[.]” Slip op. at 3. In fact, the record is silent regarding
Creason’s diagnosis.

App. 24a
fears.” Id. (quoting Jaffee v. Redmond, 518 U.S.
1, 10 (1996)).
[37]

Unlike the victim advocate privilege, however,
the counselor-client privilege is not absolute;
Indiana Code Section 25-23.6-6-1 authorizes the
disclosure of privileged information under
certain circumstances, including
“[c]ircumstances under which privileged
communication is abrogated under Indiana law.”
Friend argues (persuasively, in my view) that
this “catchall exception illustrates the
Legislature anticipated that some interests will
trump the need for counselor-client
confidentiality, thus clearly distinguishing this
case from [Crisis Connection].” Appellant’s Br. at
29. He further argues that
the fair administration of justice trumps
the interests of protecting the clientcounselor confidentiality within A.F.’s
records. Friend tried every possible
avenue to discover whether A.F. suffered
from RAD and to present such evidence
but was unsuccessful at every turn. He
translated records from the [Russian]
orphanage and had an expert review
A.F.’s behaviors to explain them. The trial
court held that all of it was inadmissible
without a diagnosis of RAD, which of
course, Friend could not discover because

App. 25a
of the privilege.[7] Further, there is a
strong likelihood that Friend would
discover material evidence within the
records. This is a rare case where the
defendant knows there was a RAD
assessment, but just does not know the
results. Health care providers do not test
for disorders they have no reason to think
exist.[8]
In a criminal context, the counselor-client
privilege unfairly favors the prosecution
over the defense. If an alleged victim’s
counseling records are helpful, the alleged
victim has the choice to waive the
privilege so they can be used. However,
when there are relevant psychological
issues, inconsistent stories or motives to
lie that may undermine the alleged
victim’s credibility, the alleged victim will
most likely not waive the privilege. Thus,
the real-world application of the privilege
is unbalanced for the State.
Id. at 33-34 (citations omitted). Under the facts
of this particular case, at least, I must agree. See
Turney v. State, 759 N.E.2d 671, 678 (Ind. Ct.
7

This is precisely the kind of “catch-22” that our supreme court
confronted in Jorgensen. 574 N.E.2d at 917.

8

The State asserts that “[t]he fact that Creason never told either
parent that A.F. had RAD is extremely strong evidence that the
result of her evaluation was a conclusion that A.F. did not have
RAD.” Appellee’s Br. at 29. This is pure speculation.

App. 26a
App. 2001) (“In sex-related cases, which often
turn largely on questions of credibility, we are
ever mindful that: ‘The jury’s estimate of the
truthfulness and reliability of a witness may
well be determinative of guilt or innocence, and
it is upon such subtle factors as the possible
interest of the witness in testifying falsely that
a defendant’s life or liberty may depend.’”)
(quoting State v. Bowens, 722 N.E.2d 368, 370
(Ind. Ct. App. 2000)), trans. denied (2002).
[38]

In Crisis Connection, the court expressed its
concern that “if the records protected by
Indiana’s victim advocate privilege were subject
to even an in camera review in cases like the
present one, ‘confidential conversations between
[victim advocates and victims] would surely be
chilled, particularly when it is obvious that the
circumstances that [gave] rise to the need for
treatment will probably result in litigation.’” 949
N.E.2d at 801 (quoting Jaffee, 518 U.S. at 11-12)
(alterations in Crisis Connection). Friend points
out, however, that Creason’s records in this case
originated from counseling with nothing
to do with alleged abuse and everything
to do with A.F.’s behavioral issues and a
failure to bond with Friend, which itself
could be a motive for a false accusation.
Friend paid for the sessions and even
participated in them. Had Friend not
been accused of molesting A.F., he would
have full access to the records.

App. 27a
Appellant’s Br. at 34 (citing Ind. Code §§ 16-391-7 and 16-39-2-9).9 Based on the foregoing, I
agree with Friend that “the interest in
maintaining confidentiality of A.F.’s counseling
is outweighed by the need for fair administration
of justice regarding the truth of A.F.’s
accusation.” Id.
[39]

9

Accordingly, I would hold that Friend “is entitled
to know whether [Creason’s] file contains
information that may have changed the outcome
of his trial had it been disclosed” and therefore
“a remand is necessary” for an in-camera review
by the trial court. Ritchie, 480 U.S. at 61. If the
review would reveal information that would

Indiana Code Section 16-39-1-7 reads in pertinent part,
(a) Except as provided in subsection (b), a custodial parent and
a noncustodial parent of a child have equal access to the
parents’ child’s health records.
(b) A provider may not allow a noncustodial parent access to
the child’s health records if:
(1) a court has issued an order that limits the noncustodial
parent’s access to the child’s health records; and
(2) the provider has received a copy of the court order or
has actual knowledge of the court order.

Section 16-39-2-9 contains similar provisions regarding a child’s
mental health records. There is no statute that specifically
addresses counseling records. Friend notes that the State
“provided no reason [at the trial level] why the Legislature would
treat counseling records different than other mental health
records” and that the foregoing statutes “illustrate that children
have less expectation of confidentiality when it comes to their preaccusation disclosures.” Appellant’s Reply Br. at 10

App. 28a
have been material to Friend’s defense, then the
trial court would have to “determine whether to
grant a new trial by viewing such information as
newly-discovered evidence and applying the law
as it relates to newly discovered evidence.”
Jorgensen, 574 N.E.2d at 918; see Denney v.
State, 695 N.E.2d 90, 93 (Ind. 1998) (to warrant
a new trial based on newly discovered evidence,
it must be shown “that the evidence (1) has been
discovered since the trial; (2) is material and
relevant; (3) is not cumulative; (4) is not merely
impeaching; (5) is not privileged or incompetent;
(6) was not discoverable upon due diligence in
time for trial; (7) is worthy of credit; (8) can be
produced on a retrial of the case; and (9) will
probably produce a different result.”).10
[40]

10

All that being said, I agree with the majority’s
determination that the trial court’s other
evidentiary rulings did not constitute reversible
error. It bears mentioning, however, that the
trial court’s rationale for excluding Dr.
Wingard’s proffered testimony regarding RAD
would stand on much shakier ground if Creason
did in fact diagnose A.F. with RAD.

I would decline Friend’s request to remand with instructions to
order Creason’s record transmitted to this Court for review, as the
trial court would be in a superior position to determine whether
any newly discovered evidence will probably produce a different
result on retrial.

App. 29a

APPENDIX C
STATE OF INDIANA
COUNTY OF ELKHART
IN THE ELKHART SUPERIOR COURT 3
Cause No.
20D03-1509-FA-20
[Filed May 9, 2018]
____________________________________
STATE OF INDIANA
)
)
vs.
)
)
MARTY FRIEND,
)
Defendant.
)
___________________________________ )
ORDER
This cause came on for hearing on December 20,
2017, on Defendant’s Request for Admissibility of
Behavioral Evidence and Motion to Introduce I.R.E.
412 Evidence. Defendant appeared in person with
counsel, Thomas Leatherman. The State of Indiana
appeared by Katelan M. Doyle, Deputy Prosecuting
Attorney. Arguments were heard and the Court took
the matter under advisement. Having now considered
Defendant’s Request and Motion, the arguments
presented, written memoranda filed by counsel, the

App. 30a
record herein, and being duly advised in the premises,
the Court now finds and concludes as follows.
The Defendant seeks to introduce two (2) primary
types of evidence at the trial in this matter, which he
classifies as “behavioral evidence” related to Reactive
Attachment Disorder (R.A.D.). This topic has been
heavily litigated in this case through various motions.
Defendant initially sought discovery of A.F.’s therapy
records and confidential notes compiled by counselor
Kate Creason. Throughout the Court’s review and
consideration of Defendant’s numerous motions on this
issue, the conclusion reached is that A.F. has not
absolutely been diagnosed with R.A.D. syndrome. At
the evidentiary hearing held on December 20, 2017, Dr.
Gerald Wingard testified that based only on documents
of text messages exchanged between Defendant, A.F.,
and A.F.’s mother, he was viewing mere “glimpses of
behavior” of A.F. There is no indicia of evidence that
A.F. actually suffers from R.A.D. other than
speculation on the part of Defendant. Furthermore,
Defendant has not discovered any witness to the State
to form the basis to elicit any such testimony, nor has
any expert reports or records been provided in support
of such opinion.
The information before the Court does not support
permitting a defense regarding that A.F. suffers from
R.A.D. because it has not been established that she
does. Evidence of such a diagnosis, its signs and
symptoms, without any basis or evidence that A.F.
actually suffers from R.A.D. amounts to jury
speculation at best. In this regard, such evidence is
prejudicial as it lacks foundation. As noted by the

App. 31a
Court in previous orders, Defendant is certainly free to
test A.F.’s credibility and conduct impeachment in any
permissible manner. However, direct testimony about
R.A.D. to suggest that A.F. might suffer from it would
be misleading. Accordingly, Defendant’s Request for
Admissibility of Behavioral Evidence is denied.
Additionally, Defendant’s request to admit evidence
of porn site visits, Google search history, and evidence
of “sexting” standing alone are not appropriate I.R.E.
412 defense evidence in that they do not constitute
evidence of prior acts or sexualized knowledge on the
part of A.F. because they are documented as having
occurred at least two (2) years after the alleged abuse
began. Such acts do not absolutely demonstrate A.F.
had prior sexual knowledge, but alternatively may
infer curiosity about acts allegedly perpetrated upon
her by Defendant. These forms of evidence are not
admissible.
IT IS THEREFORE, ORDERED, ADJUDGED,
and DECREED that Defendant’s Request for
Admissibility of Behavioral Evidence and Motion to
Introduce I.R.E. 412 Evidence are Denied.
DATED THIS 9th DAY OF MAY, 2018.
s/___________________________
Hon. Teresa L. Cataldo, Judge
Elkhart Superior Court No. 3

App. 32a

APPENDIX D
STATE OF INDIANA
COUNTY OF ELKHART
IN THE ELKHART SUPERIOR COURT 3
Cause No.
20D03-1509-FA-20
[Filed August 30, 2017]
____________________________________
STATE OF INDIANA
)
)
vs.
)
)
MARTY FRIEND
)
)
Defendant.
)
___________________________________ )
ORDER
This cause came on for hearing on August 17, 2017,
on Defendant’s Motion to Obtain and Seal Records and
Motion to Reconsider. Defendant appeared in person
and with his counsel, Thomas M. Leatherman. The
State of Indiana appeared by Katelan M. Doyle, Deputy
Prosecuting Attorney. Arguments were heard. The
Court took Defendant’s Motions under advisement.
Having considered both Motions, the arguments of
counsel, the Record herein, and being duly advised in
the premises, the Court now finds as follows.

App. 33a
Defendant’s current Motion to Reconsider concerns
the same ruling and issue(s) he raised in his first
Motion to Reconsider. Specifically, the ruling at issue
is the Court’s denial of Defendant’s Motion for Release
of Mental Health Records entered on November 23,
2016, and the Court’s denial of Defendant’s Motion to
Reconsider entered on December 21, 2016. In sum,
Defendant’s current Motion to Reconsider is repetitive
and raised no new issues other than argument that the
State of Indiana may intend to introduce certain
limited information from the alleged victim’s mental
health records at trial; therefore, Defendant argues
that this entitles him to full review and disclosure of
those mental health records beforehand.
The Court has fully analyzed the legal tests and
factors relevant to Defendant’s claim and determined
that Defendant has not, and will not be, deprived of
any constitutional right by being denied full and
unfettered access to the alleged victim’s mental health
records. The Court reiterates that it has not been
established that there is exculpatory information in
A.F.’s confidential mental health file, and the scope of
Defendant’s request exceeds discovery boundaries. The
Court also declined to entertain Defendant’s request to
conduct an in camera review of the entire mental
health file of the alleged victim simply to ascertain
before trial if anything material or exculpatory exists.
Further, the Court has determined that the subject
mental health file is deemed confidential and is
statutorily protected from disclosure by Indiana law.
Moreover, in the event the State introduces specific
matters related to the alleged victim’s mental health,
which at this point is purely speculative, Defendant is

App. 34a
in no way prohibited from utilizing all acceptable
means of confronting and cross-examining any
testimony of the alleged victim or other witnesses.
Finally, the Court reiterates its finding that the need
for disclosure of the alleged victim’s mental health
records in this case does not outweigh the potential
harm to the alleged victim.
For all these reasons, Defendant’s second Motion to
Reconsider and Defendant’s Motion to Obtain and Seal
Records are hereby Denied.
DATED AT GOSHEN, INDIANA THIS 30th DAY
OF AUGUST, 2017.
s/___________________________
Hon. Teresa L. Cataldo, Judge
Elkhart Superior Court 3

App. 35a

APPENDIX E
STATE OF INDIANA
COUNTY OF ELKHART
IN THE ELKHART SUPERIOR COURT 3
Cause No.
20D03-1509-FA-20
[Filed December 21, 2016]
____________________________________
STATE OF INDIANA
)
)
vs.
)
)
MARTY FRIEND
)
)
Defendant.
)
___________________________________ )
ORDER
This cause is currently before the Court on
Defendant’s Motion to Reconsider and Conduct an In
Camera Review of A.F.’s Mental Health Records, filed
herein on December 16, 2016. Having considered
Defendant’s Motion, the Record herein, including the
Court’s ruling denying Defendant’s request for access
to the alleged victim’s mental health records, and being
duly advised in the premise, the Court now finds and
concludes as follows.

App. 36a
1. In his Motion to Reconsider, Defendant contends
that the Court erred in denying him access to the
alleged victim’s mental health records as doing so
violates his constitutional right to confront and
cross examine witnesses and to provide a complete
defense. Defendant now requests that the Court
enter an order requiring Counselor Kreason to
produce the alleged victim’s entire mental health
file, including any assessments, so the Court can
conduct an in camera review of the file for any
material, relevant, and/or exculpatory evidence.
2. The appropriate test to apply when deciding
whether a defendant’s due process rights have been
violated with respect to the production of evidence
depends on whether the evidence in question is
“potentially useful evidence” or “material
exculpatory evidence.” The United States Supreme
Court has defined potentially useful evidence as
“evidentiary material of which no more can be said
than that it could have been subjected to tests, the
results of which might have exonerated the
defendant.” Blanchard v. State, 802 N.E.2d 14, 26
(Ind. Ct. App. 2004) (quoting Arizona v. Youngblood,
109 S.Ct. 333, 337 (1988)). On the other hand to rise
to the level of material exculpatory evidence, the
“evidence must both possess an exculpatory value
that is apparent, and be of such a nature that the
defendant would be unable to obtain comparable
evidence by other reasonably available means.”
Blanchard at 27. While a defendant is not required
to prove conclusively that the subject evidence is
exculpatory, there must be some indication that the
evidence is exculpatory. Id.

App. 37a
3. In support of his Motion to Reconsider, Defendant
states the following:
A. A.F. (alleged victim) was adopted by the
defendant and his wife out of an orphanage from
Germany.
B. Children who reside in an orphanage often fail
to bond.
C. Failure to bond often leads to developing RAD
(reactive attachment disorder).
D. Symptoms of RAD include false accusations.
E. Defendant and his wife took A.F. to a Counselor
for behavior issues, including lying.
F. Counselor indicates a RAD assessment was
completed.
4. The Court here reiterates that when a defendant
requests discovery in a criminal case, the following
test must be applied to determine whether the
information is discoverable: (1) there must be a
sufficient designation of the items sought to be
discovered (particularity); (2) the items requested
must be material to the defense (relevance); and
(3) if the particularity and materiality requirements
are met, the trial court must grant the request
unless there is a showing of “paramount interest” in
non-disclosure. Williams v. State, 819 N.E.2d 381,
385 (Ind. Ct. App. 2004); In re WTHR-TV, 693
N.E.2d 1, 6 (Ind. 1998).
5. None of the aforementioned statements in
paragraph 3 above establish that there is

App. 38a
exculpatory information in A.F.’s confidential
mental health file. Also, Defendant has not
requested discovery or review of any specific item;
rather, Defendant seeks disclosure of, and wants
the court to review, the entire mental health file of
the alleged victim in order to ascertain if anything
material or exculpatory exists.
6. It is within the trial court’s discretion to conduct an
in camera review to determine the validity of any
objection to the production of material. In re
WTHR-TV, 693 N.E.2d at 8. Defendant’s request
that the Court look through the entire mental
health file “fishing” for anything favorable to the
defense is misplaced. State v. Cook, 582 N.E.2d 444,
446 (Ind. Ct. App. 1991). Submitting a voluminous
file of documents for in camera review does not
satisfy the defendant’s burden of establishing that
certain documents are favorable to his defense and
must be disclosed. Burr v. United Farm Bureau
Mut. Ins. Co., 560 N.E.2d 1250 (Ind. Ct. App. 1990).
Rather, the specific document for review must be
identified, along with the justification for its
disclosure. In other words, the request for in camera
review must be so complete and understandable
that the trial court need not do any further research
or review for clarity of the request. Id.
7. Nowhere in Defendant’s Verified Motion for Order
Releasing Mental Health Records, or in his Motion
to Reconsider and Conduct an In Camera Review of
A.F.’s Mental Health Records, has Defendant
alleged that specific documents of an exculpatory
nature were being withheld. Defendant has not

App. 39a
shown what, if anything, contained in the alleged
victim’s mental health record would tend to
establish his innocence or play a significant role in
his defense; It is simply speculation that the file
contains anything exculpatory and, therefore, it is
simply potentially useful, at best. The mere
possibility that same item of undisclosed evidence
might help the defense does not require the trial
court to conduct an in camera review of A.F.’s
mental health file. Goudy v. State, 689 N.E.2d 686
(Ind. 1997).
8. Moreover, the subject mental health file is deemed
confidential and is statutorily protected from
disclosure by Indiana law. See, Ind. Code § 25-23.66-1 (Social Worker Privilege Statute). Also, as
stated in its Order denying Defendant’s Motion for
Order Releasing Mental Health Records, other
reasonable means of confronting and cross
examining any testimony of the alleged victim or
other witnesses is available to Defendant, and the
need for disclosure in this case does not outweigh
the potential harm to the alleged victim. Evidence
was presented that disclosing information from
A.F.’s counseling sessions may harm A.F., and
might also inhibit her from trusting the counselor in
the future.
Under the circumstances of this case, Defendant’s
Motion to Reconsider and Conduct an In Camera
Review of A.F.’s Mental Health Records is hereby
Denied.

App. 40a
DATED AT GOSHEN, INDIANA THIS 21st DAY
OF DECEMBER, 2016.
s/___________________________
Teresa L. Cataldo, Judge
Elkhart Superior Court 3

App. 41a

APPENDIX F
STATE OF INDIANA
COUNTY OF ELKHART
IN THE ELKHART SUPERIOR COURT 3
Cause No.
20D03-1509-FA-20
[Filed November 23, 2016]
____________________________________
STATE OF INDIANA
)
)
vs.
)
)
MARTY FRIEND
)
)
Defendant.
)
___________________________________ )
ORDER
This cause came on for Evidentiary Hearing on
August 5, 2016, on Defendant’s Verified Motion for
Order Releasing Mental Health Records. Defendant
appeared in person and with counsel, Thomas
Leatherman. The State of Indiana appeared by Katelan
Doyle, Deputy Prosecuting Attorney. Evidence was
presented in the form of testimony and exhibits.
Arguments of counsel were heard. The Court took the
matter under advisement. The parties were afforded
additional time within which to file their respective

App. 42a
supportive briefs. Having now considered Defendant’s
Motion, the evidence and arguments presented, the
Record herein, the written post-hearing briefs of
counsel, and being duly advised in the premises, the
Court now finds and concludes as follows.
1.

The standard of review in discovery matters is
abuse of discretion. Kristoff v. Glasson, 778
N.E.2d 465 (Ind. Ct. App. 2002). The appellate
court will reverse only where the trial court has
reached an erroneous conclusion which is clearly
against the logic and effect of the facts of the
case. Id. Moreover, due to the fact-sensitive
nature of discovery matters, the ruling of the
trial court is cloaked in a strong presumption of
correctness on appeal. Kristoff, 778 N.E.2d at
470-71. The trial court’s decision will be affirmed
if it is sustainable on any legal basis in the
record. Benham v. State, 637 N.E.2d 133 (Ind.
1994).

2.

In criminal cases in general, to determine if
information sought is properly discoverable,
there must be a sufficient designation of the
items sought to be discovered (particularity); the
items requested must be material to the defense
(relevance); and if the particularity and
materiality requirements are met, the trial court
must grant the request unless there is a showing
of paramount interest in non-disclosure.
Williams v. State, 819 N.E.2d 381, 385 (Ind. Ct.
App. 2004).

3.

In regard to a discovery request by the
defendant, to demonstrate particularity, the

App. 43a
request must enable the subpoenaed party to
identify what is sought and allow the trial court
to determine whether there has been sufficient
compliance with the request. Regarding
materiality/relevance, an item is “material” if it
appears that it might benefit the preparation of
the defendant’s case. The relevance of some
information or items may be self-evident.
Nonetheless, where the materiality of the
information is not self-evident, the defendant
must indicate its potential materiality to the
best of his ability. Id. The term paramount
interest suggests that some fundamental and
important stake is required to resist discovery.
Whether a sufficient interest has been shown to
prevent discovery will depend upon the type of
interest put forth and the category of
information sought. Williams, supra, (citing
Kindred v. State, 540 N.E.2d 1161 (Ind. 1989).
4.

In addition to the general limitations imposed on
discovery of sensitive information in criminal
cases, the subject records are deemed
confidential and are statutorily protected from
disclosure by Indiana law. See, Ind. Code § 2523.6-6-1 (Social Worker Privilege Statute).
However, Ind. Code § 16-39-3-3 provides a
mechanism by which one party may obtain
mental health records not disclosed by the
opposing party. This is the statutory process by
which Defendant seeks the disclosure of A.F.’s
counseling/mental health records in the instant
case.

App. 44a
5.

Under Ind. Code § 16-39-3, a hearing is required
by Ind. Code § 16-39-3-4. Following that hearing,
which was conducted in this case, the Court may
order the release of the patient’s mental health
record if the Court finds by a preponderance of
the evidence that: (1) Other reasonable methods
of obtaining the information are not available or
would not be effective; and (2) The need for
disclosure outweighs the potential harm to the
patient. In weighing the potential harm to the
patient, the court shall consider the impact of
disclosure on the provider-patient privilege and
the patient’s rehabilitative process. Ind. Code
§ 16-39-3-7.

6.

In the event the trial court authorizes the
release of a patient’s mental health records, in
the absence of the patient’s consent, the trial
court must include in its order authorizing
release of a record, (1) limit disclosure to those
parts of the patient’s record that are essential to
fulfill the objective of the order; (2) limit
disclosure to those persons whose need for
information is the basis of the order; and
(3) include other measures necessary to limit
disclosure for the protection of the patient, the
provider-patient privilege, and the rehabilitative
process. Ind. Code § 16-39-3-9. See also,
Berryman v. State, 797 N.E.2d 820, 825 (Ind. Ct.
App. 2003).

7.

In the instant case, Defendant requests the
disclosure of all information A.F. (alleged victim)
provided to her Counselor, Kate Creason;

App. 45a
information provided to the Counselor by A.F.’s
parents; and records of any assessments or
diagnosis made. The Court does not consider
this request to be sufficiently particular. To the
contrary, the request is so broad that it could
easily be interpreted to include the entire
counseling file maintained by Ms. Creason.
8.

Defendant also contends that he is entitled to
discovery of A.F.’s counseling/mental health
records because the records will aid him in the
defense of the charges brought against him by
the State; therefore, they are material.
Defendant goes on to argue that the information
he seeks is material in that he believes A.F. may
possess Reactive Attachment Disorder (R.A.D.),
a condition that could result in A.F. failing to
develop a conscience, and become either
emotionally withdrawn or cautious; or in the
alternative, steal, lie, act impulsive, act without
remorse and make false accusations.
(Defendant’s Memorandum in Support of
Request for Medical Records). Defendant further
asserts that he knows Ms. Creason performed an
R.A.D. assessment and it is important for him to
know the results and for his attorney to have an
opportunity to review the records in order to
“learn any exculpatory information which might
be helpful in his defense.” (Defendant’s
Memorandum).

9.

Defendant has not asserted that the records he
seeks in fact contain material or exculpatory
information. Rather, Defendant avers that they

App. 46a
may contain such information. Defendant did
not establish that A.F. suffers from R.A.D, only
that he believes an assessment was conducted.
Even if A.F. has that condition, it does not
necessarily follow that she absolutely lies or
makes up allegations, and would not be
considered exculpatory. Defendant has simply
not made a substantiated claim that the records
he seeks do in fact contain material or
exculpatory information. Moreover, it was
presented at the hearing that A.F.’s relationship
with Ms. Creason is based on trust. Disclosing
information from the sessions may further harm
A.F., and might also inhibit her from trusting
the counselor in the future. Indeed, disclosure
could cause a serious setback. For all these
reasons, the Court hereby finds that Defendant
has not met the particularity and materiality
tests, and the Court finds that a paramount
interest is at stake which is sufficient to deny
such discovery.
10.

Defendant also contends that his inability to
inspect A.F.’s counseling/mental health records
will deprive him of the right of confrontation and
due process under the Sixth and Fourteenth
Amendments. The right to cross-examination is
not necessarily violated when a defendant is not
permitted to inspect confidential records because
such a broad interpretation of the Confrontation
Clause would transform the same into a
constitutionally compelled rule of pretrial
discovery. In re Crisis Connection, Inc., 949
N.E.2d 789, 796 (Ind. 2011) (citing Pennsylvania

App. 47a
v. Ritchie, 480 US. 39 (1987) at 52)). The ability
to question adverse witnesses does not include
the power to require the pretrial disclosure of
any and all information that might be useful in
contradicting unfavorable testimony. Ritchie at
53.
11.

Here, Defendant is free, within the parameters
of discovery and evidentiary rules, to elicit
deposition and trial testimony from A.F.
Moreover, he is not being deprived of the right to
cross-examine A.F., or to testify as to those
behaviors of A.F. which Defendant has personal
knowledge of. However, Defendant’s asserted
need for disclosure of A.F.’s counseling/mental
health records does not outweigh the potential
harm to A.F. emanating from such disclosure.

IT IS THEREFORE, ORDERED, ADJUDGED,
and DECREED that Defendant’s Verified Motion for
Order Releasing Mental Health Records is hereby
denied.
DATED AT GOSHEN, INDIANA THIS 23rd
DAY OF NOVEMBER, 2016.
s/___________________________
Teresa L. Cataldo, Judge
Elkhart Superior Court 3

App. 48a

APPENDIX G
STATE OF INDIANA
COUNTY OF ELKHART
IN ELKHART SUPERIOR COURT 3
Cause No.
20D03-1509-FA-20
[Filed March 14, 2016]
____________________________________
STATE OF INDIANA
)
)
vs.
)
)
MARTY FRIEND,
)
)
Defendant.
)
___________________________________ )
ORDER
This cause came on for hearing on January 28,
2016, on Defendant’s Motion to Request Discovery
Order. The Elkhart County Sheriff produced Defendant
who appeared with counsel, Thomas M. Leatherman.
The State of Indiana appeared by Katelan Doyle,
Deputy Prosecuting Attorney. Arguments of counsel
were heard. The Court took the matter under
advisement, and by agreement of the parties, was
afforded forty-five (45) days within which to rule
herein. Having considered Defendant’s Motion, the

App. 49a
arguments of counsel, applicable law and authorities,
and being duly advised in the premises, the Court now
finds and concludes as follows.
Defendant’s Motion to Request Discovery Order
concerns Defendant’s Request for Production presented
to the State on January 11, 2016, pursuant to Ind.
Trial R. 34(C) and Ind. Trial R. 45(B), in which defense
counsel sought production of, for inspection and
copying, the complete mental health file maintained by
professional, licensed Clinical Social Worker Kate
Creason concerning the child witness (alleged victim)
in this case. Defendant’s request for the information
contained in this file is based on his speculation that
the file may contain exculpatory information, which
invokes a right to obtain the materials despite the
protections of privileged communications as set out in
Ind. Code § 25-23.6-6-1.
However, there has been no showing that there is
exculpatory information in the subject mental health
files. Defendant has presented insufficient evidence
that an exception to the narrowly construed patient
privilege exists. J.B. v. F.B., 935 N.E.2d 296 (Ind. Ct.
App. 2010).
For these reasons, the Court hereby denies
Defendant’s Motion to Request Discovery Order at this
time.
DATED AT GOSHEN, INDIANA THIS 14th DAY
OF MARCH, 2016.
s/___________________________
Teresa L. Cataldo, Judge
Elkhart Superior Court No. 3

App. 50a

APPENDIX H
RELEVANT STATUTORY PROVISIONS
2019 INDIANA CODE
TITLE 16. HEALTH
ARTICLE 39. HEALTH RECORDS
Chapter 1. Release of Health Records to Patient and
Authorized Persons
IC § 16-39-1-7
Child’s health records; access to custodial and
noncustodial parents
Sec. 7. (a) Except as provided in subsection (b), a
custodial parent and a noncustodial parent of a child
have equal access to the parents’ child’s health records.
(b) A provider may not allow a noncustodial parent
access to the child’s health records if:
(1) a court has issued an order that limits the
noncustodial parent’s access to the child’s health
records; and
(2) the provider has received a copy of the court
order or has actual knowledge of the court order.
(c) If a provider incurs additional expense by
allowing a parent equal access to health records under
this section, the provider may require the parent
requesting the equal access to pay a fee to cover the
cost of the additional expense.

App. 51a
Chapter 2. Release of Mental Health Records to Patient
and Authorized Persons
IC § 16-39-2-9
Exercise of patient’s rights by others; equal
access to records; fees
Sec. 9. (a) For the purposes of this chapter, the
following persons are entitled to exercise the patient’s
rights on the patient’s behalf:
(1) If the patient is a minor, the parent, guardian,
or other court appointed representative of the
patient.
(2) If the provider determines that the patient is
incapable of giving or withholding consent, the
patient’s guardian, a court appointed representative
of the patient, a person possessing a health care
power of attorney for the patient, or the patient’s
health care representative.
(b) A custodial parent and a noncustodial parent of a
child have equal access to the child’s mental health
records unless:
(1) a court has issued an order that limits the
noncustodial parent’s access to the child’s mental
health records; and
(2) the provider has received a copy of the court
order or has actual knowledge of the court order.
If the provider incurs an additional expense by
allowing a parent equal access to a child’s mental
health records, the provider may require the parent

App. 52a
requesting the equal access to pay a fee under IC
16-39-9 to cover the cost of the additional expense.
2019 INDIANA CODE
Title 25. PROFESSIONS AND OCCUPATIONS
Article 23.6. BEHAVIORAL HEALTH AND HUMAN
SERVICES PROFESSIONALS
Chapter 1. Definitions
IC § 25-23.6-1-3.8 “Counselor”
Sec. 3.8. Except as provided in IC 25-23.6-7-5,
“counselor” refers to a social worker, a clinical social
worker, a marriage and family therapist, a mental
health counselor, an addiction counselor, or a clinical
addiction counselor who is licensed under this article.
Chapter 6. Privileged Communications
IC § 25-23.6-6-1 Matters related in official
capacity; exceptions to privilege
Sec. 1. Matters communicated to a counselor in the
counselor’s official capacity by a client are privileged
information and may not be disclosed by the counselor
to any person, except under the following
circumstances:
(1) In a criminal proceeding involving a homicide if
the disclosure relates directly to the fact or
immediate circumstances of the homicide.
(2) If the communication reveals the contemplation
or commission of a crime or a serious harmful act.
(3) If:

App. 53a
(A) the client is an unemancipated minor or an
adult adjudicated to be incompetent; and
(B) the information communicated to the
counselor indicates the client was the victim of
abuse or a crime.
(4) In a proceeding to determine mental
competency, or a proceeding in which a defense of
mental incompetency is raised.
(5) In a civil or criminal malpractice action against
the counselor.
(6) If the counselor has the express consent of:
(A) the client; or
(B) in the case of a client’s death or disability,
the express consent of the client’s legal
representative.
(7) To a physician if the physician is licensed under
IC 25-22.5 and has established a physician-patient
relationship with the client.
(8) Circumstances under which privileged
communication is abrogated under Indiana law.

